                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-00923-237


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

        Clement J. Zablocki 

         VA Medical Center 

       Milwaukee, Wisconsin 





August 12, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                           CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of June 16, 2014, at the following
CBOCs which are under the oversight of the Clement J. Zablocki VA Medical Center
and Veterans Integrated Service Network 12:

    Cleveland CBOC, Cleveland, WI

    Milo C. Huempfner CBOC, Green Bay, WI

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	    A hazardous materials inventory review occurs twice within a 12-month period at the
      Milo C. Huempfner CBOC.

	    The examination room designated for women veterans is equipped with either an
      electronic or manual door lock at the Cleveland CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Managers ensure that patients with excessive persistent alcohol use receive brief
      treatment or are evaluated by a specialty provider within 2 weeks of the screening.

	    Registered Nurse Care Managers receive motivational interviewing training within
      12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation is completed at each episode of care where
      the newly prescribed fluoroquinolones was administered, prescribed, or modified.




VA OIG Office of Healthcare Inspections                                                        i
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–20, for the full text of the Directors’ comments.) We consider
Recommendation 2 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                         CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                        CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Cleveland and
Milo C. Huempfner CBOCs. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current             The CBOC’s inventory of hazardous materials
       inventory of hazardous materials and waste        was not reviewed for accuracy twice within the
       that it uses, stores, or generates.               prior 12 months at the Milo C. Huempfner
                                                         CBOC.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.



VA OIG Office of Healthcare Inspections                                                                   3
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


NM              Areas Reviewed (continued)                                   Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              The examination room designated for women
       veterans in the examination room.                  veterans was not equipped with either an
                                                          electronic or manual door lock at the Cleveland
                                                          CBOC.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that processes are improved to ensure review of the hazardous
materials inventory occurs twice within a 12-month period at the Milo C. Huempfner CBOC.



VA OIG Office of Healthcare Inspections                                                                     4
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


2. We recommended that the door to the examination room designated for women veterans is
equipped with electronic or manual locks at the Cleveland CBOC.




VA OIG Office of Healthcare Inspections                                                                 5
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 7 (18 percent) of 39 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for three of six patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             positive screening for 2 of 13 patients.
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 9 (25 percent) of 36 RN Care
       received motivational interviewing training        Managers did not receive motivational
       within 12 months of appointment to PACT.           interviewing training within 12 months of
                                                          appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.



VA OIG Office of Healthcare Inspections                                                                   6
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


4. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

5. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.

6. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing training within 12 months of appointment to Patient Aligned
Care Teams.




VA OIG Office of Healthcare Inspections                                                                 7
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 13 (33 percent) of 40 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendation

7. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.




VA OIG Office of Healthcare Inspections                                                                     8
                              CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 9
                                                                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                                                                      Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                    Uniques4                                       Encounters4

                             Station                    CBOC
      Location     State                  Locality5                  MH7         PC8       Other9        All        MH7         PC8        Other9        All
                                #                        Size6
                                                       Very
    Appleton       WI       695BY        Urban         Large         2,683     13,081      15,092      16,376     14,249       37,160     78,125      129,534
    Milo C.                                            Mid-
    Huempfner      WI       695GD        Urban         Size            761       3,807       3,028       4,913      5,187       8,778     10,435        24,400
                                                       Mid-
    Cleveland      WI       695GC        Rural         Size            659       3,608       1,543       3,978      2,562       7,620       4,812       14,994
    Union                                              Mid-
    Grove          WI       695GA        Rural         Size            711       3,157       2,094       3,435      3,249       8,648       6,336       18,233




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         10
                           CBOC and PCC Reviews Clement J. Zablocki VA Medical Center, Milwaukee, WI


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
          CBOC                                                Ancillary Services12
                                     Services11                                                 Services13
    Appleton                        Optometry                    Laboratory                 Tele Primary Care
                                     Podiatry                   Rehabilitation                  Tele Case
                                 Anti-Coagulation                 Radiology                   Management
                                       Clinic                      Nutrition
                                                                  Pharmacy
                                                             Electrocardiography
                                                                 Social Work
                                                                Diabetes Care
    Milo C. Huempfner                     ---                      Nutrition                Tele Primary Care
                                                                 Laboratory                     Tele Case
                                                                Rehabilitation                Management
                                                             Electrocardiography
                                                                  Pharmacy
                                                                 Social Work
                                                                  Audiology
    Cleveland                             ---                      Nutrition                Tele Primary Care
                                                             Electrocardiography
    Union Grove                           ---                 MOVE! Program14               Tele Primary Care
                                                             Electrocardiography
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           11
                                                                  CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                                                                   Appendix B


                                                         PACT Compass Metrics





                                                                                                                                                            
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                               12
                                                                   CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                   13
                                                                  CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                14
                                                                   CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.



VA OIG Office of Healthcare Inspections                                                                                                                    15
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                      Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       July 14, 2014

          From:        Director, VA Great Lakes Health Care System (10N12)

       Subject:        CBOC and PCC Reviews of the Clement J. Zablocki VA
                       Medical Center, Milwaukee, WI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Attached please find the CBOC and PCC Reviews response to the
       draft report from the Clement J. Zablocki VA Medical Center, Milwaukee,
       WI review.

       2. I have reviewed the completed response.

       3. I appreciate the Office of Inspector General’s efforts to ensure high
       quality of care to veterans at the Milwaukee VAMC.




       Jeffrey A. Murawsky, MD, FACP




VA OIG Office of Healthcare Inspections                                                       16
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       July 11, 2014

          From:        Director, Clement J. Zablocki VA Medical Center (695/00)

       Subject:        CBOC and PCC Reviews of the Clement J. Zablocki VA
                       Medical Center, Milwaukee, WI

             To:       Director, VA Great Lakes Health Care System (10N12)



       1. Enclosed are the responses to the recommendations in the draft Office
       of Inspector General’s report on the Milwaukee CBOC Review of the
       Cleveland, Wisconsin CBOC, HCC Review of the Green Bay, Wisconsin
       HCC and the Milwaukee Primary Care Clinics.

       2. If you have any questions or wish to discuss this report, please contact
       me at (414) 384-2000, Extension 41025.




       ROBERT H. BELLER, FACHE




VA OIG Office of Healthcare Inspections                                                       17
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are improved to ensure review
of the hazardous materials inventory occurs twice within a 12-month period at the
Milo C. Huempfner CBOC.

Concur

Target date for completion: November 1, 2014

Facility response: The Medical Center and associated clinics will perform the bi-annual
hazardous material inventory during the months of April and October. This will be
tracked through the Environment of Care Council. The hazardous material inventory
review for the Milo C. Huemphner Health Care Center was completed on April 30, 2014.
The next review is scheduled for completion by October 31, 2014.

Recommendation 2. We recommended that the door to the examination room
designated for women veterans is equipped with electronic or manual locks at the
Cleveland CBOC.

Concur

Target date for completion: June 25, 2014

Facility response: On June 18, 2014 the building landlord was contacted to install a lock
on an examination room that had been designated for women Veterans. On
June 25, 2014 that landlord informed the clinic management that the work was
completed. The clinic staff confirmed the completion by visual inspection.

Recommendation 3.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: October 31, 2014

Facility response: The Primary Care Division Manager and Primary Care Provider
Program Managers have met with the CBOC/Primary Care Clinic staff to review the
requirement to complete diagnostic assessments for Veterans with a positive alcohol
screen. This will be tracked on a monthly basis beginning in July 2014 by monitoring




VA OIG Office of Healthcare Inspections                                                       18
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


the AUDIT-C positive clinical reminder completion rate. Compliance will be considered
satisfactory if the completion rate is 90 percent or greater.

Recommendation 4.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: October 31, 2014

Facility response: The Primary Care Division Manager, Mental Health Co-Division
Managers, Primary Care Provider and Mental Health Provider Program Managers have
met with the CBOC/Primary Care Clinic staff to review the requirement to consistently
offer brief treatment or a specialty provider referral within two (2) weeks of a positive
screening. These options will be incorporated into the AUDIT-C positive clinical
reminder in July 2014 for an AUDIT-C score of eight or greater. Compliance will be
monitored on a monthly basis beginning in July 2014 by monitoring the AUDIT-C
positive clinical reminder completion rate. Compliance will be considered satisfactory if
the completion rate is 90 percent or greater. Veterans who cannot be reached after
three attempts will not be included in the compliance rate.

Recommendation 5. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: October 31, 2014

Facility response: The Primary Care Division Manager, Mental Health Co-Division
Managers, Primary Care Provider and Mental Health Provider Program Managers will
ensure that Veterans with excessive persistent alcohol use receive brief treatment or a
specialty provider referral within two (2) weeks of a positive screening. These options
will be incorporated into the AUDIT-C positive clinical reminder in July 2014 for an
AUDIT-C score of eight or greater. Compliance will be monitored on a monthly basis
beginning in July 2014 by monitoring the AUDIT-C positive clinical reminder completion
rate. Compliance will be considered satisfactory if the completion rate is 90 percent or
greater. Veterans who cannot be reached after three attempts will not be included in
the compliance rate.

Recommendation 6. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing training within 12 months of
appointment to Patient Aligned Care Teams.

Concur

Target date for completion: October 31, 2014


VA OIG Office of Healthcare Inspections                                                       19
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI


Facility response: All but one current Patient Care Aligned Team RN has completed the
Motivational Interviewing training; this RN is scheduled to attend the Part 2 session in
August 2014. Primary Care Leadership will develop a spreadsheet in July 2014 to track
all new Registered Nurses hired for a Patient Aligned Care Team. The PACT
appointment date for each RN will be entered, as well as their scheduled training dates
for Motivational Interviewing Part One and Motivational Interviewing Part Two. This will
be reviewed monthly by the Primary Care Leadership beginning in July 2014 and
reported to the Health Promotion Disease Prevention Committee. Compliance will be
considered satisfactory if all Registered Nurses complete Motivation Interviewing
Training within 12 months of appointment to a PACT.

Recommendation 7.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: October 31, 2014

Facility response: By July 31, 2014 the Medical Staff Leadership, in collaboration with
the Pharmacy, will develop an automated process for the ordering of fluoroquinolones
that includes the requirement of documenting medication reconciliation.             By
August 31, 2014 education will be provided to the staff members who order
fluoroquinolones on the new, automated process. Beginning in September 2014,
compliance with the new process will be monitored to ensure there is documentation
that medication reconciliation is completed where newly prescribed fluoroquinolones
were administered, prescribed, or modified. Compliance will be considered satisfactory
if the completion rate is 90 percent or greater.




VA OIG Office of Healthcare Inspections                                                       20
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Wachita Haywood, RN, Team Leader
Contributors
Other                   Debra Boyd-Seale, RN, PhD
Contributors            Judy Brown, Program Support Assistant
                        Alicia Castillo-Flores, MBA, MPH
                        Lin Clegg, PhD
                        Sheila Cooley, GNP, MSN
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Laura Spottiswood, RN, MPH
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       21
                     CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Clement J. Zablocki VA Medical Center (695/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tammy Baldwin, Ron Johnson
U.S. House of Representatives: Sean P. Duffy, Ron Kind, Gwen Moore,
 Thomas Petri, Mark Pocan, Reid Ribble, Paul Ryan, F. James Sensenbrenner


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       22
                         CBOC and PCC Reviews at Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                         Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    23
